App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-31074
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
SHELTON BARNES; MICHAEL JONES; HENRY
EVANS; PAULA JONES; GREGORY MOLDEN, M.D.,
Defendants-Appellants.
Appeal from the United States District Court
for the Eastern District of Louisiana

(Filed Oct. 28, 2020)
Before OWEN, Chief Judge, and HAYNES and COSTA,
Circuit Judges.
PRISCILLA R. OWEN, Chief Judge:
Shelton Barnes, Michael Jones, Henry Evans,
Paula Jones, and Gregory Molden were convicted of
offenses related to Medicare fraud. We affirm.

App. 2
I
Dr. Shelton Barnes, Dr. Michael Jones, Dr. Henry
Evans, Paula Jones, and Dr. Gregory Molden were each
previously employed by Abide Home Care Services,
Inc., a home health agency owned by Lisa Crinel.
Barnes, Michael Jones, Evans, and Molden served as
“house doctors.” In that role, the physicians referred
patients to Abide for home health care services. Paula
Jones, Michael Jones’s wife, was one of Abide’s billers.
As a biller, Jones would process Medicare filings. She
would use the Kinnser billing system (Kinnser) to en­
sure that all appropriate documentation existed for
each bill. As part of Abide’s business model, it would
“provide home health services to qualified patients and
then bill Medicare accordingly.”
Medicare reimburses providers for home health
care services if a particular patient is (1) eligible for
Medicare and (2) meets certain requirements. Those
requirements include, inter alia, that the patient is
« i
homebound,’ under a certifying doctor’s care, and in
need of skilled services.”1 Certifying a patient for home
health care begins with an initial referral, which typ­
ically originates with the patient’s primary care phy­
sician.2 Next, “a nurse goes to the patient’s home to
assess if [he or] she is homebound, completing an
Outcome and Assessment Information Set [(OASIS)].”3
From the OASIS assessment, the nurse develops a
1 United States v. Ganji, 880 F.3d 760, 777 (5th Cir. 2018).
2 Id. at 764.
3 Id.

App. 3
plan of care on a form known as a “485” for the pre­
scribing physician’s review. Only a physician can ap­
prove a 485 plan. Physicians are expected to review the
forms to ensure they are accurate. These forms, as well
as a face-to-face addendum certifying that the nurse
met with the patient, are then routed to Medicare.4
This process permits payment for one 60-day episode.
Patients can then be recertified for subsequent epi­
sodes.
Medicare determines how much will be paid for
each episode based, in part, on the patient’s diagnosis.
Each diagnosis has a corresponding code derived from
the International Statistical Classification of Diseases
and Related Health Problems 9th Revision (an ICD-9
code). Reimbursements are higher for some diagnoses
than others. So-called “case-mix diagnoses” such as
rheumatoid arthritis, cerebral lipidosis, and low vision,
receive higher payments than other, comparatively
simpler diagnoses. As a result, false or erroneous en­
tries on the OASIS form can ultimately result in
higher Medicare reimbursements.
The government came to suspect that Abide was
committing health care fraud. Specifically, the govern­
ment alleged that “Abide billed Medicare based on
plans of care that doctors authorized for medically un­
necessary home health services.” According to the
government, several patients who had received home
health care from Abide did not, in fact, need such
services. Each physician had “approved [case-mix]
Id.

App. 4
diagnoses to patients on . . . 485s that were medically
unsupported.” Paula Jones had also participated in the
scheme. Through Kinnser, Abide employees were able
to predict how much Medicare would reimburse for a
particular episode of home health care. If the episode
did not meet Abide’s “break-even point,” Jones would
send “the files back to the case managers to see if they
could get the score up.” These and other actions “fraud­
ulently inflated Medicare’s reimbursement to Abide.”
Relatedly, the government also came to suspect
that Abide was “pay[ing] doctors, directly or indirectly,
for referring patients.” The government alleged that
Crinel (the owner of Abide) had paid the physicians
for patient referrals. Some of these payments were
“disguised as compensation for services performed as
[medical directors]” for Abide. The government also
alleged that Paula Jones’s salary, which had doubled
during her time working for Abide, was based on her
husband’s referrals. This conduct, the government al­
leged, constituted a violation of 42 U.S.C. §§ 1320a7b(b)(l), (b)(2)—the anti-kickback statute.
Barnes, Michael Jones, Evans, Paula Jones, and
Molden were each charged with conspiracy to commit
health care fraud and conspiracy to violate the anti­
kickback statute. Each physician was also charged
with several counts of substantive health care fraud.
Finally, Barnes was charged with obstructing a federal
audit in violation of 18 U.S.C. §§ 2 and 1516. According
to the government, upon learning he was under audit,
Barnes falsified documents to justify his fraudulent
certifications.

App. 5
At trial, Crinel, Wilneisha Jakes (Crinel’s daugh­
ter and an Abide employee), Rhonda Maberry (an
assistant manager at Abide), and Eleshia Williams
(Barnes’s biller) testified for the government. Dr. Lutz
also testified for the government. He evaluated the
medical records of several of Abide’s patients and
opined as to whether home health care was medically
necessary. The defendants presented several witnesses;
Evans also testified in his own defense. The jury con­
victed Barnes, Michael Jones, Paula Jones, and Molden
of conspiracy to commit health care fraud and conspir­
acy to violate the anti-kickback statute. Barnes, Evans,
Michael Jones, and Molden were each found guilty of
several counts of substantive health care fraud. The
jury also convicted Barnes of obstructing a federal au­
dit. Thereafter, each was sentenced to a term of impris­
onment. This appeal followed.
II
We first consider the issues raised by Shelton
Barnes.
A
Barnes challenges the sufficiency of the evi­
dence supporting each of his convictions. “[P]re­
served sufficiency-of-the-evidence challenges” are
reviewed de novo.5 Under that standard, “we review[ ]
5 United States v. Gibson, 875 F.3d 179, 185 (5th Cir. 2017)
(citing United States v. Davis, 735 F.3d 194, 198 (5th Cir. 2013)).

App. 6
the record to determine whether, considering the evi­
dence and all reasonable inferences in the light most
favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime
beyond a reasonable doubt.”6
1
Barnes was convicted on both counts of conspiracy
identified in the indictment. Count 1 alleged that he
conspired to commit healthcare fraud, in violation of
18 U.S.C. §§ 1347 and 1349. Section 1347 punishes
“[w]hoever knowingly and willfully executes, or at­
tempts to execute, a scheme or artifice ... to defraud
any health care benefit program ... in connection with
the delivery of or payment for health care benefits,
items, or services.”7 To convict on Count 1, the govern­
ment was required to prove: “(1) two or more persons
made an agreement to commit health care fraud; (2)
the defendant knew the unlawful purpose of the agree­
ment; and (3) the defendant joined in the agreement

6 Id. (alteration in original) (quoting United States v. VargasOcampo, 747 F.3d 299, 303 (5th Cir. 2014) (en banc)); see also
United States v. Grant, 683 F.3d 639, 642 (5th Cir. 2012) (‘“The
evidence need not exclude every reasonable hypothesis of in­
nocence or be wholly inconsistent with every conclusion except
that of guilt,’ in order to be sufficient.” (quoting United States v.
Moreno, 185 F.3d 465, 471 (5th Cir. 1999))).
7 18 U.S.C. § 1347(a).

App. 7
willfully, that is, with the intent to further the unlaw­
ful purpose.”8
Count 2 alleged that Barnes conspired with others
to “knowingly and willfully solicit and receive . . . kickbacks and bribes ... in return for referring individu­
als for” Medicare services in violation of 42 U.S.C.
§§ 1320a-7b(b)(l), (b)(2), and 18 U.S.C. § 371. As sum­
marized in United States v. Gibson, the anti-kickback
statute “criminalizes the payment of any funds or ben­
efits designed to encourage an individual to refer an­
other party to a Medicare provider for services to be
paid for by the Medicare program.”9 To convict on
Count 2, the government was required to establish:
“(1) an agreement between two or more persons to
pursue [the] unlawful objective; (2) the defendant’s
knowledge of the unlawful objective and voluntary
agreement to join the conspiracy; and (3) an overt act
by one or more of the members of the conspiracy in fur­
therance of the objective of the conspiracy. ”10
The sine qua non of a conspiracy is an agreement.11
We have previously recognized that “[a]greements
need not be spoken or formal. ”12 « [T]he [government
8 Gibson, 875 F.3d at 185-86 (footnote omitted) (citing United
States v. Willett, 751 F.3d 335, 339 (5th Cir. 2014)).
9 Id. at 187 (quoting United States v. Miles, 360 F.3d 472,479
(5th Cir. 2004)).
10 Id. at 187-88 (quoting United States v. Njoku, 737 F.3d 55,
64 (5th Cir. 2013)).
11 See United States v. Ganji, 880 F.3d 760, 767 (5th Cir.
2018).
12 Id.

App. 8
can use evidence of the conspirators’ concerted actions
to prove an agreement existed.”13 Nevertheless, “[p]roof
of an agreement to enter a conspiracy is not to be
lightly inferred, »14 ii 6 Mere similarity of conduct among
various persons and the fact that they have associated
with or are related to each other’ is insufficient to prove
an agreement.”15 “Conspirators do not enter into an
agreement by happenstance. . . . ”16
On appeal, Barnes relies heavily on our previous
decision in United States v. Ganji in arguing that there
was insufficient evidence to convict him of either con­
spiracy. In Ganji, Elaine Davis, the owner of a home
health care agency, and Dr. Ganji, a physician associ­
ated with Davis’s agency, were charged and ultimately
convicted of conspiracy to commit health care fraud
and substantive health care fraud.17 We reversed on
sufficiency-of-the-evidence grounds.18 As to each con­
spiracy conviction, we concluded the government failed
to establish either individual entered into an agree­
ment to commit health care fraud.19 Unlike “the vast
majority of concert of action cases,” the government
did not produce an “insider” who could testify as to
13 Id.
14 Id. (alteration in original) (quoting United States v. John­
son, 439 F.2d 885, 888 (5th Cir. 1971)).
16 Id. at 767-68 (quoting United States v. White, 569 F.2d 263,
268 (5th Cir. 1978)).
16 Id. at 768.
17 Id. at 764-66.
18 Id. at 778.
19
Id. at 773.

App. 9
either Dr. Ganji’s or Davis’s involvement in the al­
leged conspiracy.20 Moreover, “[t]he quality and proba­
tive strength of the [g]overnment’s ‘concerted action’
evidence in [Ganji fell] well short of the [requisite]
threshold.”21 As to the substantive health care fraud
convictions, we concluded “there [was] insufficient evi­
dence to show that [either individual] knowingly exe­
cuted a scheme to defraud Medicare.”22 According to
Barnes, “[t]he facts described [in Ganji] are practically
identical, or more than substantially so, to the facts
brought out at trial.” We disagree.
As to Count 1, Maberry testified to signing
Barnes’s name on 485s, and to certifying falsely that
patients were under Barnes’s care. The jury heard evi­
dence that Barnes was aware of this conduct. More­
over, Crinel testified that Barnes was paid for patient
referrals, which established a potential motive for
Barnes’s conduct. Importantly, Crinel had also pleaded
guilty to conspiring with Barnes to commit health care
fraud. Finally, the government presented statistical ev­
idence reflecting that Barnes billed for case-mix diag­
noses with significantly greater frequency than other
providers in Louisiana and the country as a whole. As
the district court noted, the numbers are significantly
different such that they are “too large to have hap­
pened by chance.” Collectively, this evidence more than
sufficiently establishes the elements of conspiracy.
20 Id. at 771.
21 Id. at 770; see id. at 773.
22 Id. at 778 (emphasis added).

App. 10
Regarding Count 2, Wilneisha Jakes’s and Crinel’s
testimony provide sufficient evidence of a conspiracy to
violate the anti-kickback statute. During Jakes’s testi­
mony, she admitted that: (1) Barnes was paid for pa­
tient referrals; (2) his employment agreement was
created merely to establish a paper trail; and (3) she
entered into an agreement with Barnes to pay him for
his referrals. Likewise, Crinel testified that Barnes
was being paid for patient referrals. As with Count 1,
because she pleaded guilty to conspiring with Barnes
to violate the anti-kickback statute, her testimony re­
garding Barnes’s role in the conspiracy was especially
probative.
Of course, Barnes’s case bears some similarities to
Ganji. But we strongly disagree with his assessment
that his case is “practically identical, or more than sub­
stantially so,” to Ganji. Perhaps the most significant
difference is the fact that this case is one of “the vast
majority of concert of action cases [] [in which] the
[government presents an insider with direct evidence
of the conspiratorial scheme. ”23
2

Counts 3 through 17 each alleged a separate vio­
lation of 18 U.S.C. § 1347. Counts 3 through 7 con­
cerned patient HaHa; Counts 8 through 10 concerned
patient KiSt; and Counts 11 through 17 concerned
patient ArGi.
23 Id. at 771.

App. 11
Barnes again relies on Ganji, and specifically this
court’s recognition that to convict a physician of violat­
ing 18 U.S.C. § 1347 the prosecution “must provide ev­
idence that the accused doctor executed a fraudulent
scheme with knowledge that the patient was not homebound.”24 According to Barnes, his convictions should
be overturned because the government did not produce
one scintilla of evidence that Barnes “knew [HaHa,
KiSt, or ArGi were] not homebound.”25
Despite Barnes’s contentions, the government pre­
sented sufficient evidence that Barnes knew these pa­
tients were not home-health-care eligible. Maberry,
Barnes’s nurse practitioner, told him that not all of the
patients he certified as homebound were, in fact, homebound. Moreover, the substantial evidence presented
as to Counts 1 and 2 undermines Barnes’s argument.
Evidence of a financial incentive for home health care
referrals and statistical evidence probative of fraudu­
lent conduct are circumstantial evidence of Barnes’s
knowledge.
Specific evidence relating to each patient rein­
forces this conclusion. As to patient HaHa, Maberry
testified that HaHa’s billings lacked appropriate sup­
porting documentation. Dr. Lutz testified that HaHa
did not know Barnes and that several of HaHa’s diag­
nosis codes were “shuffled” during recertifications. As
to patient KiSt, Barnes lacked records for this patient,
and he never met with her. Maberry, who pleaded
24 Id. at 777 (emphasis added).
25 Id. at 778.

App. 12
guilty to conspiring with Barnes to commit Medicare
fraud regarding KiSt’s home health certification, testi­
fied that 485s had been pre-signed before visiting KiSt.
Lastly, as to patient ArGi, Dr. Lutz testified that
Barnes’s patient files for ArGi lacked the documenta­
tion that should have existed if ArGi had the condi­
tions Barnes alleged ArGi had. Also, Maberry signed
Barnes’s signature on several of the relevant 485s
identified in the indictment. In the aggregate, this evi­
dence is more than sufficient for a reasonable juror to
conclude that Barnes’s conduct was fraudulent.
3
We next consider Barnes’s conviction for obstruct­
ing a federal audit in violation of 18 U.S.C. §§ 2 and
1516. Section 1516 provides the following:
Whoever, with intent to deceive or defraud
the United States, endeavors to influence,
obstruct, or impede a Federal auditor in the
performance of official duties relating to a
person, entity, or program receiving in excess
of $100,000, directly or indirectly, from the
United States in any 1 year period under a
contract or subcontract, grant, or cooperative
agreement, . . . shall be fined under this title,
or imprisoned not more than 5 years, or both.26
On appeal, Barnes raises two arguments as to why his
conviction as to Count 47 should be reversed.

26 18 U.S.C. § 1516(a).

App. 13
Barnes’s first argument concerns § 1516’s jurisdic­
tional element, which specifically requires that the
conduct in question be directed at “a Federal auditor in
the performance of official duties relating to a person,
entity, or program receiving in excess of $100,000, di­
rectly or indirectly, from the United States in any 1
year period.”27 Under his proposed interpretation of
the statute, § 1516 can only apply if he received “in ex­
cess of $100,000 . . . from the United States in any 1
year period.”28 Thus, because no such evidence was
adduced at trial, he is entitled to an acquittal. The
government disagrees and instead argues Barnes’s
conviction should be affirmed because Medicare re­
ceived in excess of $100,000 from the United States.
Reviewing this question of statutory interpreta­
tion de novo, we are inclined to side with the govern­
ment.29 Under a plain-text reading of the statute, it is
telling that an individual violates § 1516 when he or
she “endeavors to influence, obstruct, or impede a Fed­
eral auditor in the performance of official duties relat­
ing to a person, entity, or program receiving in excess
of $100,000 . . . from the United States.”30 In this case,
the audit was undoubtedly related to Medicare, a “pro­
gram receiving in excess of $100,000 . . . from the

27 Id.
28 Id.
29 United States v. Ridgeway, 489 F.3d 732, 734 (5th Cir.
2007) (citing United States v. Phillips, 303 F.3d 548, 550 (5th Cir.
2002)).
30 18 U.S.C. § 1516(a) (emphasis added).

App. 14
United States.”31 Further, we are not convinced that
Barnes’s alternative interpretation represents a better
reading of the statute. Under his interpretation, the
amount of money received by an alleged violator would
often be the statute’s limiting criterion. Such a result
would inherently thwart Congress’s intentions when it
comes to enforcing the statute. We therefore decline to
adopt Barnes’s proposed reading of § 1516’s jurisdic­
tional element. Because there was sufficient evidence
to establish § 1516’s jurisdictional element under the
interpretation we adopt today, we reject Barnes’s first
argument concerning Count 47.
Next, Barnes contends there was insufficient evi­
dence he engaged in obstructive conduct. But the jury
heard evidence that Barnes received several letters
from Medicare indicating that he would not be paid for
certain Medicare billings because the billings lacked
the appropriate documentation. Thereafter, he gave
over fifty audit letters to Maberry, his nurse practi­
tioner. He then informed her that they had “received
the audit, and in order for him to get paid[, they] had
to complete that audit for Medicare.” In response, Ma­
berry and Eleshia Williams, Barnes’s biller, completed
paperwork in order to justify these billings. Some doc­
uments were falsified to do so. Both Maberry and Wil­
liams testified that Barnes was aware of these actions.
According to Maberry, Barnes had implied that they
should take such actions. Moreover, she testified that
she falsified, and Barnes signed, care plan log sheets
31 Id.

App. 15
in response to the audit. Williams noted that Barnes
had observed and tacitly approved of Maberry signing
his name on medical documentation as part of the au­

dit.
We agree with the government that logical and
reasonable inferences from this evidence would enable
a reasonable juror to conclude that Barnes acted “with
intent to deceive or defraud the United States, ”32 as required by § 1516(a), or that he acted “with the intent
to facilitate” the offense’s commission, as required by
§ 2.33
B
Barnes asserts that the prosecutor made improper
comments during closing arguments. During those ar­
guments, Paula Jones’s attorney challenged the credi­
bility of Dr. Lutz, the government’s expert witness.
Specifically, her attorney stated:
Dr. Lutz may not be going where his grandfa­
ther was going. His grandfather may go to
church, Dr. Lutz goes to Galatoire’s. There’s a
big difference. When I listen to him, it was al­
most like an aristocratic arrogance of saying,
okay, we have all these problems in New Orle­
ans, but I’m going to be at Galatoire’s and I’m
going to write out a big prescription—Weight
32 Id.
33 See Rosemond v. United States, 572 U.S. 65, 70-71 (2014)
(quoting Cent. Bank of Denver, N.A. v. First Interstate Bank of
Denver, N.A., 511 U.S. 164, 181 (1994)).

App. 16
Watchers for everybody. That’s going to solve
all our problems, as he takes another sip of
his martini. That’s an aristocratic arrogance.
Never seen the patients, never go down to the
areas of the city that need it.
The reference to Galatoire’s, a restaurant in the
French Quarter, stemmed from Dr. Lutz’s testimony
during trial that he does not eat at Galatoire’s on Fri­
days during lunch because “[t] here’s too many attor­
neys” there.
The government responded to the defense’s com­
ments during their rebuttal argument. The prosecutor
specifically stated:
He is not an elitist. He worked for the City of
New Orleans when these defendants, these
elite defendants probably weren’t out of med­
ical school. He worked for the City of New
Orleans in home health for the inner city. So
that’s offensive that this man can’t go out and
have a martini at a place he said he did. Well,
he won’t because these defense attorneys are
there.
The defense objected to the remarks at a bench confer­
ence, but the court did not take any action. The court
did note during post-trial motions that such comments
were “improper.” However, it went on to state that no
action was necessary because “the jury was presented
with abundant evidence of [Barnes’s] guilt” and the
comments were but a small part of a long trial.

App. 17
On appeal, Barnes alleges the prosecutor’s com­
ments were “offensive and inflammatory.” He argues
the comments invoked class-stereotypes by referring
to the defendants as elitist and impugned the integrity
of defense counsel. According to him, the comments
were “so wrong [ ] that speculation on whether it had an
impact on the jury need not be suggested.” We agree
the comments were improper but believe such com­
ments did not affect Barnes’s substantial rights. We
therefore decline his request for a new trial.
We apply a two-step process when evaluating the
propriety of a prosecutor’s comments during closing ar­
guments. First, this court “initially decide [s] whether
. . . the prosecutor made an improper remark.”34 “Sec­
ond, ‘[i]f an improper remark was made, we must then
evaluate whether the remark affected the substantial
rights of the defendant, ’”35 Courts consider “(1) the
magnitude of the prejudicial effect of the prosecutor’s
remark, (2) the efficacy of any cautionary instruction
by the judge, and (3) the strength of the evidence sup­
porting the conviction.”36 De novo review applies to the
first inquiry.37 In contrast, “the question of whether . . .

34 United States v. McCann, 613 F.3d 486,494 (5th Cir. 2010)
(quoting United States v. Gallardo-Trapero, 185 F.3d 307, 320
(5th Cir. 1999)).
36 Id. (alteration in original) (quoting Gallardo-Trapero, 185
F.3d at 320).
36 United States v. Bennett, 874 F.3d 236, 254 (5th Cir. 2017)
(quoting United States v. Weast, 811 F.3d 743, 752 (5th Cir. 2016)).
37 McCann, 613 F.3d at 494.

App. 18
the defendant’s substantial rights were affected [is re­
viewed] under the abuse of discretion standard.”38
As to the first part of the analysis, the district
court correctly held that the prosecutor’s comments
were improper. The prosecutor’s description of the
defendants as elitists was arguably in response to
the defense’s initial attacks against Dr. Lutz. But
even assuming that comment was appropriate, no
similar justification validates the prosecution’s com­
ments aimed at defense counsel. Attacking defense
counsel was unwarranted, unprovoked, and irrelevant.
The district court therefore correctly concluded that
the prosecution’s remarks during rebuttal were im­
proper.
Nevertheless, these comments did not affect
Barnes’s substantial rights. Viewed in context, the
comments were not overly prejudicial and were un­
likely to inflame the passions of the jury.39 Moreover,
these comments were but a small part of a significant
trial. Admittedly, the judge did not provide a specific
curative instruction concerning the prosecutor’s com­
ments. Yet the case against Barnes was strong. As the
district court aptly stated, “it strains credulity to argue
that this offhand comment—a few seconds in a fourweek trial—had a prejudicial impact on [Barnes’s] sub­
stantial rights.” We therefore decline Barnes’s request

38 Id.
39 See United States v. Phea, 755 F.3d 255, 267-68 (5th Cir.
2014).

App. 19
for a new trial as a result of the prosecutor’s improper
comments during closing arguments.
C
Barnes challenges the district court’s refusal to
admit patient consent forms into evidence. Dr. Lutz
testified as an expert for the government that several
patients treated by the physicians in this case “had no
business being in home health.” During Dr. Lutz’s tes­
timony, Barnes sought to introduce consent forms
“signed by patients KiSt, HaHa[,] and ArGi in which
those patients acknowledge they are homebound.” The
district court refused to admit this evidence. It con­
cluded that: (1) the forms constituted hearsay that was
inadmissible under Rule 803(4) (medical records ex­
ception) or Rule 807 (residual exception); (2) the forms
were inadmissible “under Rules 703 or 705, as Dr. Lutz
did not rely on the documents in forming his opinion,
and did not use the documents as underlying facts or
data;” and (3) the evidence was inadmissible even for
impeachment purposes because the forms “were not
prior inconsistent statements by Dr. Lutz.”
On appeal, Barnes contends these documents
were admissible hearsay and were admissible for the
purposes of impeaching Dr. Lutz’s testimony. We re­
view “evidentiary rulings for abuse of discretion.”40 “A
district court abuses its discretion when its ruling is
40 United, States v. Gluk, 831 F.3d 608, 613 (5th Cir. 2016)
(citing United States v. El-Mezain, 664 F.3d 467, 494 (5th Cir.
2011)).

App. 20
based on an erroneous view of the law or a clearly er­
roneous assessment of the evidence.”41 If the district
court did abuse its discretion, any resulting error is
“subject to harmless error review.”42 “A reversal will not
be warranted unless the defendant shows ‘that the dis­
trict court’s ruling caused him substantial preju­
dice.’ ”43 Applying this framework, the district court did
not abuse its discretion when it refused to admit the
consent forms into evidence.
First, the forms were inadmissible as hearsay
evidence. The evidence did not qualify for admission
under Rule 803(4). That exception requires that the
statements be “made for—and [are] reasonably per­
tinent to—medical diagnosis or treatment.”44 Here,
though, the statements (i.e., the forms) address criteria
for home health care, not a specific medical diagnosis
or treatment. The forms were also inadmissible under
Rule 807 because they lacked indicia of reliability:45 As
the district court noted, “the nurses who signed the
forms [or provided them to the patients for their signa­
ture] either pleaded guilty to health care fraud or were
otherwise implicated in the fraud.”

41 Williams v. Manitowoc Cranes, L.L.C., 898 F.3d 607, 615
(5th Cir. 2018) (quoting Heinsohn v. Carabin & Shaw, P.C., 832
F.3d 224, 233 (5th Cir. 2016)).
42 Gluk, 831 F.3d at 613 (citing El-Mezain, 664 F.3d at 494).
43 El-Mezain, 664 F.3d at 494 (quoting United States v. Bishop,
264 F.3d 535, 546 (5th Cir. 2001)).
44 Fed. R. Evid. 803(4).
45 See Fed. R. Evid. 807.

App. 21
Second, the evidence was inadmissible under
Rules 703 and 705 because Dr. Lutz did not rely on
those forms in making his opinion.46 Finally, the forms
were inadmissible as prior inconsistent statements. As
the district court noted, the patients made the state­
ments (i.e., filled out and signed the forms), not Dr.
Lutz. Because Dr. Lutz did not originally make the
statements, they could not be used to impeach his cred­
ibility.47
Having addressed and rejected each of Barnes’s
arguments as to why the patient consent forms were
admissible, we express no further opinion as to whether
the forms may have been admissible under any other
legal theory.48 Accordingly, the district court did not
abuse its discretion when it refused to admit the prof­
fered consent forms into evidence.
D
At trial, Barnes sought to have several Medicare
regulations read to the jury as instructions. These
46 See Fed. R. Evid. 703, 705.
47 See Fed. R. Evid. 613(b) (“Extrinsic evidence of a witness’s
prior inconsistent statement is admissible only if the witness is
given an opportunity to explain or deny the statement and an ad­
verse party is given an opportunity to examine the witness about
it, or if justice so requires.” (emphasis added)).
48 See Grogan v. Kumar, 873 F.3d 273, 277 (5th Cir. 2017)
(“[T]his court typically ‘will not consider evidence or arguments
that were not presented to the district court for its considera­
tion. . . .’ ” (quoting Skotak v. Tenneco Resins, Inc., 953 F.2d 909,
915 (5th Cir. 1992))).

App. 22
regulations covered a variety of topics, including, inter
alia, (1) a list of services available to patients eligible
for home health care, (2) the certification requirements
necessary for a patient to receive home health care,
(3) permissible financial relationships between phy­
sicians and health care agencies, and (4) Medicare’s
guidance concerning the frequency of face-to-face
meetings between physicians and their home-health
patients.
The district court ultimately declined to read
those instructions to the jury. It was “particularly con­
cerned about committing error by instructing the jury
on the meaning of the Medicare regulations in a crim­
inal trial,” relying heavily on this court’s decision in
United States v. Christo.49 In Christo, the prosecution
presented “evidence and argument concerning viola­
tions of [a civil regulatory statute]”50 during a criminal
trial focusing on “misapplication of bank funds.”51 We
reversed the defendant’s convictions after noting the
prejudicial effect of “bootstrap [ping] a series of. . . civil
regulatory violation[s]” into a criminal trial.52 “The
trial court’s instructions and emphasis on [the civil
regulatory statute],” we noted, “served only to com­
pound the error by improperly focusing the jury’s
attention to the prohibitions of [the civil regulatory
statute].”53 Concluding that Christo controlled, the
49
60
61
52
53

614 F.2d 486 (5th Cir. 1980).
Id. at 492.
Id. at 488.
Id. at 492.
Id.

App. 23
trial judge here refused to read Barnes’s requested in­
structions. Importantly, though, the substance of those
instructions was brought to the jury’s attention numer­
ous times. The actual Medicare regulations upon which
the proposed instructions were based “were admitted
into evidence without objection and provided to the
jury.” The judge also permitted defense counsel to ar­
gue the substance of these instructions during closing
arguments.
On appeal, Barnes asserts the district court erred
when it refused to read the proffered instructions. Ac­
cording to him, “[j]ust having these complex regula­
tions used and battered about during the trial, when
they formed the heart and soul of the defense, was not
adequate.” The judge, as a neutral and detached party,
should have provided the jury with guidance on these
regulations. Moreover, he argues the district court’s re­
liance on Christo was inappropriate. Unlike in Christo,
“the government [in this case was not] attempting to
use regulations to sustain its burden of proof.” Christo
is distinguishable, Barnes asserts, because in this
case the defense requested the instruction. Thus, in
Barnes’s estimation, the district court’s refusal to pro­
vide the requested instructions constitutes error.
There is no error in the district court’s refusal to
read the proffered instructions to the jury. “Whe[n], as
here, the defense requested a jury instruction and the
request was denied, we review the denial for abuse of

App. 24
discretion.”54 “A district court abuses its discretion by
failing to issue a defendant’s requested instruction if
the instruction (1) is substantively correct; (2) is not
substantially covered in the charge given to the jury;
and (3) concerns an important point in the trial so that
the failure to give it seriously impairs the defendant’s
ability to present effectively a particular defense.”55
We assume without deciding that the proffered in­
structions were “substantively correct” and “not sub­
stantially covered in the charge given to the jury. ”56
Nevertheless, the refusal to read the instructions did
not impair Barnes’s “ability to present effectively a
particular defense.”57 As the district court outlined, the
jury was amply aware of the Medicare regulations and
their importance to this case. The district court also
properly relied on Christo. It is not difficult to imagine
a jury confusing the standards articulated in the Med­
icare regulations with the appropriate legal standard
in a criminal case. These risks are present irrespective
of whether the government or the defense requests
these types of instructions. We express no opinion
whether it would have constituted an abuse of discre­
tion if the judge had actually read the proffered in­
struction at the defense’s behest. But given the wide
54 United States v. Bennett, 874 F.3d 236, 242 (5th Cir. 2017)
(quoting United States v. Bowen, 818 F.3d 179,188 (5th Cir. 2016)
(per curiam)).
55 Id. at 242-43 (internal quotation marks omitted) (quoting
United States v. Sheridan, 838 F.3d 671, 672-73 (5th Cir. 2016)).
66 Id. at 243 (quoting Sheridan, 838 F.3d at 673).
57 Id. (quoting Sheridan, 838 F.3d at 673).

App. 25
latitude district courts have to effectively preside over
criminal trials, we conclude the district court did not
abuse its discretion in this case when it refused to read
Barnes’s proffered instructions to the jury.
Ill
Michael Jones contends there was insufficient ev­
idence to convict him of conspiracy to commit health
care fraud (Count 1), conspiracy to violate the anti­
kickback statute (Count 2), and seven counts of sub­
stantive health care fraud (Counts 18 and 22 through
27). Count 18 alleged fraud concerning patient ArGi;
Counts 22 through 26 concerned patient LiSc; and
Count 27 concerned patient EvLa.
A
Jones asserts many of the same arguments as his
co-defendants and likewise relies heavily on Ganji. As
to Count 1, the circumstantial evidence offered against
Jones was sufficient to convict him of conspiracy to
commit health care fraud. Like many of the other de­
fendants, Jones had a financial incentive to refer pa­
tients to home health care. From this evidence, the jury
could reasonably infer that Jones had a motive to fal­
sify health care certifications. Statistical evidence
reflected that Jones diagnosed patients with certain
conditions significantly more often than other doctors.
The jury also heard substantial evidence that Jones
himself certified patients for home health care even
when those patients were ineligible for such services.

App. 26
Finally, Crinel pleaded guilty to conspiring with Jones
to commit health care fraud. Together, this evidence is
far stronger than that presented in Ganji; it is more
than enough to find Jones guilty of conspiracy to com­
mit health care fraud.
Similarly, the record contains ample evidence that
Jones agreed to violate the anti-kickback statute.
Crinel’s testimony alone suffices. According to Crinel,
Jones told her that if she increased Paula Jones’s sal­
ary, “he would send patients to substantiate her salary
being increased.” From this testimony, the jury was
more than justified in finding Jones guilty of conspir­
acy to violate the anti-kickback statute.
B
As to whether there was insufficient evidence to
find him guilty on Counts 18 and 22 through 27, Jones
does not appear to contest that the patient named in
each count was ineligible for home health services. In­
stead, he contends there was insufficient evidence he
knew the patients were ineligible when he certified
them for such services, thereby preventing him from
being convicted of health care fraud.
However, the previously addressed statistical evi­
dence and his financial motive to falsify certifications
are both circumstantial proof of knowledge. Jones like­
wise told one of his employees that Crinel was not re­
ceiving the number of patients she expected and that
the employee needed “to schedule more health fairs” in
order “[t]o find patients.” This evidence suggests that

App. 27
Jones’s unnecessary referrals were done with intent to
deceive.58 Considered together, this evidence is suffi­
cient for a jury to conclude that Jones’s actions were
fraudulent.
IV
Henry Evans was convicted of five counts of sub­
stantive health care fraud. Count 31 concerned patient
JoWi and Counts 43 through 46 concerned patient
MaGr. He challenges his convictions and his sentence.
A
Whether there was sufficient evidence to convict
Evans as to Count 31 of the indictment is complicated
by the fact that both Evans and the government con­
fused the true identity of patient JoWi. In 2009, Evans
had originally treated a patient named JoWi (JoWil).
In 2013, he was asked to certify a different patient with
the same first and last name as JoWil for home health
care (JoWi2). Evans did so without meeting her. Ac­
cording to his trial testimony, he had certified JoWi2
for home health care under the mistaken belief that
she was in fact JoWil.
During the investigation of this case, the case agent
discovered the 2013 JoWi2 home health certification.
58

See United States v. Gibson, 875 F.3d 179, 186 (5th Cir.
2017) (indicating that a persistent focus on the number of patients
being referred for health care services can be indicative of fraud­
ulent intent).

App. 28
The case agent mistakenly believed that JoWi2 and
JoWil were one in the same and that Evans had certi­
fied JoWil for home health care when he had not seen
her since 2009. As a result, the government alleged the
following in the indictment:
Medicare Beneficiary JoWi: It was further
part of the scheme to defraud that Medicare
beneficiary JoWi began home health at Abide
after she was referred by her treating phy­
sician to home health for wound care after
a hospitalization. Beginning in July 2013,
E[vans] began certifying JoWi for home
health at Abide, even though the last docu­
mented visit E[vans] had with JoWi was in
October 2009. E[vans] certified JoWi for at
least two (2) additional episodes of home
health at Abide between July 2013 and Febru­
ary 2014.
At trial, the case agent attempted to clarify the issue
for the jury. Evans reinforced his understanding of
events when he testified in his own defense.
On appeal, Evans contends the aforementioned
confusion led to either an impermissible constructive
amendment of the indictment or a sufficiency-of-theevidence issue.
1
Evans argues that the indictment’s confusion be­
tween JoWil and JoWi2 resulted in a constructive
amendment of the indictment in violation of the Fifth

App. 29
Amendment of the Constitution. But Evans only fully
addresses the merits of this argument in his reply
brief. It is well settled in this circuit that “a defendant
waives an issue if he fails to adequately brief it.”59 We
consequently do not consider this issue.
2

Evans contends that the confusion about JoWi re­
sulted in a sufficiency-of-the-evidence issue. Evans ar­
gues that if Count 31 referenced JoWil, there was no
evidence he ever fraudulently certified her for home
health care. Thus, he could not be convicted on that
count. He also argues that the same result holds if
Count 31 referenced JoWi2 because there was insuffi­
cient evidence to prove the conduct was criminal. He
argues there was no evidence showing that JoWi2 was
ineligible for home health care or that his certification
of her for home health care was done with the requisite
fraudulent intent. Additionally, Evans argues his “mis­
take of fact” defense—namely, that he mistook JoWil
for JoWi2—prevents him from being convicted. Evans
is not entitled to relief under either premise.
As an initial matter, we note that we need not and
therefore do not address whether there was sufficient
evidence introduced as to Count 31 if that count was
intended to refer to JoWil. The indictment can be read
to suggest Count 31 intended to reference JoWil. But
any resulting confusion in the indictment as to the
69 See United States v. Martinez, 263 F.3d 436, 438 (5th Cir.
2001).

App. 30
“true identity” of JoWi was eliminated at trial once
the government’s case agent and Evans himself testi­
fied. At that point, all parties involved—including the
jury—understood Count 31 concerned JoWi2, and spe­
cifically, that the issue was whether the certification
pertaining to that patient constituted fraud. Because
the jury in this case was amply aware that Count 31
turned on whether the JoWi2 billing was fraudulent,
we need only consider whether sufficient evidence was
offered to support that count.
The jury heard evidence that Evans twice certified
JoWi2 as homebound, under his care, and in need of
skilled services even though he had never met her.
There was evidence suggesting that certification was
done with fraudulent intent. The circumstances sur­
rounding the JoWi certification were, to say the least,
suspicious. Evans’s defense to this claim amounted to
a self-serving admission that he mistakenly believed
JoWi2 to be JoWil—a patient he had not seen or treated
in nearly five years. The jury was entitled to judge Ev­
ans’s veracity and to reach the opposite conclusion.
Moreover, the inference of fraud that arises from the
suspicious circumstances surrounding JoWi’s certifica­
tion becomes only stronger when one considers the am­
ple evidence offered at trial that Evans had knowingly
and falsely certified another patient, MaGr, as homebound. Upon collectively viewing this evidence, “it was
not unreasonable for the jury to discredit Evans’[s]
self-serving testimony, draw rational inferences from
[his] actions, and find him guilty [on Count 31].” Con­
trary to Evans’s arguments, the record contained

App. 31
sufficient evidence to establish each element of the
charged offense.
B
For Counts 43 through 46, the indictment specifi­
cally alleged that Evans fraudulently billed Medicare
for two episodes of home health care, the first episode
beginning on April 1, 2012 and the second on Novem­
ber 27, 2012. The Medicare Part A and Medicare Part
B billings for each of those episodes constituted the
four relevant counts. As to why these billings were
fraudulent, the indictment alleged: (1) “Evans falsely
certified [diagnosis codes] on MaGr’s 485s that were
not medically supported in his treatment of MaGr;”
(2) Evans certified MaGr for two episodes of home
health care even though she did not qualify for home
health care; and (3) Evans billed Medicare for care
plan oversight of patients in home health care for 30
minutes or more each month despite the fact that he
did not provide the requisite services.
Importantly, the theories of fraud identified in the
indictment are merely theories as to why each billing
constituted fraud. When evaluating the sufficiency of
the evidence, we are concerned with the “essential el­
ements of the crime.”60 Thus, on appeal, Evans must

60 Gibson, 875 F.3d at 185 (emphasis added) (quoting United
States v. Vargas-Ocampo, 747 F.3d 299, 303 (5th Cir. 2014) (en
banc)).

App. 32
demonstrate insufficient evidence of each of these
three allegations in order to merit a reversal.
The jury heard evidence demonstrating that, de­
spite Evans’s certifications to the contrary, MaGr was
ineligible for home health care. Dr. Lutz provided tes­
timony that MaGr “didn’t seem to have any trouble
getting around.” Dr. Lutz also noted that there was no
“indication in any medical record that supports [clas­
sifying MaGr as] homebound.” Dr. Lutz stated that
MaGr was certified for thirty-two episodes of care. He
conceded that MaGr may have qualified for services at
some point. Nevertheless, she did not need skilled
nursing services continuously for that period. Coupled
with the fact that Evans had a financial interest in
home health referrals, there was sufficient evidence to
establish that the two Medicare Part A billings and
two Medicare Part B billings identified in Counts 43
through 46 constituted fraud.
C
Evans asserts that the district court erred when it
allowed Dr. Lutz to testify as an expert witness. Dr.
Lutz testified on behalf of the government as “an ex­
pert in the field of internal medicine and the medical
necessity of home health services.” Out of the presence
of the jury, the government presented Dr. Lutz’s quali­
fications to the court. The prosecution elicited, inter
alia, that Dr. Lutz: (1) received his medical doctorate
from Tulane University School of Medicine and a mas­
ter’s degree in public health from Tulane University

App. 33
School of Public Health and Tropical Medicine; (2) pre­
viously served as the Director of Health for the City of
New Orleans; (3) received numerous awards through­
out his career; and (4) had previously taught at Tulane
University. The defense challenged Dr. Lutz’s quali­
fications by eliciting, inter alia, that (1) he had never
before testified “regarding the medical necessity [of]
home health services;” (2) he had “never studied home
health;” and (3) that Dr. Lutz had never seen several of
the patients about whom he was called upon to testify.
The judge qualified Dr. Lutz as an expert.
Dr. Lutz testified on a variety of subjects. He pro­
vided insight into the various medical conditions iden­
tified in each patient’s file, pointed out apparent
contradictions between a physician’s proposed treat­
ment plan and the patient’s complaints, and addressed
whether a patient needed skilled nursing services. Dr.
Lutz also testified that the patients identified in the
indictment “may have needed home health for short
periods of time, but none of them needed it for the con­
tinuous periods of time that [they] were consistently
certified and recertified for.” He was subject to vigorous
cross-examination by defense counsel.
On appeal, Evans contends that the admission of
Dr. Lutz’s testimony constituted error. Evans’s primary
contention is that “Dr. Lutz’s testimony . . . [was] not
based on the ‘reliable principles and methods’ relevant
to this case—the Medicare regulations.” He specifically
points to a bench conference in which counsel for the
government acknowledged that (1) Dr. Lutz was not
asked “anything about the regulations” during direct

App. 34
examination and (2) knowledge of the regulations was
“out of [Dr. Lutz’s] experience.” Evans notes that the
district court acknowledged that Dr. Lutz was not qual­
ified to speak about the relevant regulations. Address­
ing Dr. Lutz’s testimony, the court noted the following:
But he hasn’t testified—all he—he has said in
his opinion as a doctor making a decision
about whether someone needs home health
care services, that that would have an impact
on his thoughts about whether they needed it.
Now, whether that technically under the Med­
icare regulations affects the determination, I
don’t think this witness is qualified to testify
about that.
Evans argues that “[t]he district court’s statement is
remarkable, given that Dr. Lutz had just finished two
days of testimony as the [government’s ‘expert,’ [dur­
ing which] he stated definitively that in his expert
opinion the eight patients named in the indictment
were not ‘homebound.
Evans also alleges Dr. Lutz had a “highly flawed
view of home health care.” Evans points to transcript
excerpts in which Dr. Lutz acknowledges that his defi­
nition of “homebound” differs from Medicare’s:
My definition—or my thinking of homebound
is when somebody has an illness where they
literally can’t get out of the house without do­
ing an ambulance or something, or where it
takes an army or a village or something to get
them out. I think that the—I think that the
Medicare definition that you’re talking about

App. 35
in Chapter 7 is liberal and allows home health
care to a larger number of people. . . .
This testimony is concerning, Evans argues, because
he “was being tried for fraudulently violating the Med­
icare regulations!,] not violating Dr. Lutz’s personal
definition of‘homebound.’” He alleges that “an opinion
divorced from [Medicare’s] regulation [s] is unreliable
and therefore, inadmissible.” The district court’s re­
fusal to read the applicable Medicare regulations to
the jury, Evans contends, “compounded” the error cre­
ated by admitting Dr. Lutz’s testimony.
When evaluating the propriety of expert testi­
mony, we turn to the Federal Rules of Evidence, which
dictate the admission of expert testimony in federal
trials. Under Rule 702, “[a] witness who is qualified as
an expert by knowledge, skill, experience, training, or
education may testify in the form of an opinion or oth­
erwise if:” (1) the testimony is helpful to the trier of
fact, (2) “the testimony is based on sufficient facts or
data,” (3) “the testimony is the product of reliable prin­
ciples and methods,” and (4) “the expert has reliably
applied the principles and methods to the facts of the
case.”61 Thus, “[e] Xpert testimony is admissible only if
it is both relevant and reliable.”62

61 Fed. R. Evid. 702.
62 United States v. Hodge, 933 F.3d 468, 477 (5th Cir. 2019)
(quoting Pipitone v. Biomatrix, Inc., 288 F.3d 239, 244 (5th Cir.
2002)).

App. 36
“A trial court’s decision to admit expert evidence is
reviewed for abuse of discretion.”63 As a general matter,
district courts are afforded “wide latitude” when it
comes to the admissibility of expert testimony.64 Thus,
this court will only disturb the district court’s decision
to admit expert testimony if the decision was “mani­
festly erroneous.”65 “A manifest error is one that ‘is
plain and indisputable, and that amounts to a com­
plete disregard of the controlling law. ’”66 Even if this
court concludes the district court did err when it ad­
mitted expert testimony, this court will not reverse a
defendant’s conviction if the error was harmless.67
Here, the district court’s decision to admit Dr.
Lutz’s testimony did not constitute an abuse of discre­
tion. Evans’s contentions on appeal turn on the scope
of Dr. Lutz’s testimony. As previously stated, Dr. Lutz
was allowed to offer his opinions as “an expert in the
field of internal medicine and the medical necessity of
home health services.” Within those parameters, Dr.
Lutz was qualified to testify about a variety of topics.
After reviewing a relevant patient’s medical records,
63 Puga v. RCXSols., Inc., 922 F.3d 285, 293 (5th Cir. 2019)
(citingKnight v. Kirby Inland Marine Inc., 482 F.3d 347, 351 (5th
Cir. 2007)).
64 Id. (quoting Watkins v. Telsmith, Inc., 121 F.3d 984, 988
(5th Cir. 1997)).
66 Id. (quoting Watkins, 121 F.3d at 988).
66 Id. (quoting Guy v. Crown Equip. Corp., 394 F.3d 320, 325
(5th Cir. 2004)).
67 United States v. Wen Chyu Liu, 716 F.3d 159,167 (5th Cir.
2013) (citing Kanida v. Gulf Coast Med. Pers. LP, 363 F.3d 568,
581 (5th Cir. 2004)).

App. 37
he was capable of (1) defining medical terminology,
(2) identifying apparent contradictions between a phy­
sician’s treatment plan and a patient’s complaints,
(3) opining as to whether a patient needed skilled nurs­
ing care, and (4) analyzing whether a patient’s medical
file supported his or her physician’s conclusion that he
or she suffered from a particular condition. A medical
doctor with Dr. Lutz’s experience can answer questions
about these topics after reviewing an individual pa­
tient’s medical records. The district court did not abuse
its discretion to the extent it permitted Dr. Lutz to tes­
tify about these subjects.
Whether Dr. Lutz was qualified to testify about the
“medical necessity of home health services” is a more
difficult question. Although the record is not entirely
clear, the district court appears to have drawn a dis­
tinction between “the medical necessity of home health
services” and whether the patient qualified for home
health care under Medicare. For example, the district
court noted the following during a bench conference:
So [Dr. Lutz] was qualified as an expert in
internal medicine and the medical necessity
of home health services, which I interpreted
to mean this was for—and his testimony
was more about, would this—does this per­
son need someone to come to their home?
Would it be good for them for someone to
come to their home as opposed to them going
to the doctor’s office? But he was not, he was
not qualified as an expert in Medicare regula­
tions and he wasn’t questioned about that.

App. 38
The district court ruled that Dr. Lutz could offer his
opinion as a practitioner as to whether a particular pa­
tient needed home health care. In contrast, Dr. Lutz
could not testify about whether a particular patient
qualified for home health care under Medicare.
Allowing Dr. Lutz to testify about whether he be­
lieved a patient was homebound arguably may have
injected confusion at trial. Evans correctly notes that
“whether a patient is ‘homebound!]’ ... is a medico­
legal determination.” To the extent that the Medicare
regulations provide guidance as to which patients
qualify as homebound, it is akin to a term of art. But
the word also has meaning outside of these parame­
ters.
At numerous times throughout Dr. Lutz’s testi­
mony, Dr. Lutz noted that certain patients were not
homebound. But, for many of these occasions, Dr. Lutz
failed to clarify whether his determination was based
on his own definition of homebound or on Medicare’s.
Dr. Lutz’s testimony as to his comparatively conserva­
tive view of home health care’s requirements only
served to further complicate the matter. For borderline
cases, there thus existed a very real possibility that a
patient would have qualified for home health care un­
der Medicare while also not being homebound under
Dr. Lutz’s standard. In these instances, Dr. Lutz’s de­
terminations as to the homebound status of these pa­
tients could have, at a minimum, confused the jury. At
worst, his determinations could have misled them.
Nevertheless, the fact that Dr. Lutz’s determinations

App. 39
could have confused or potentially misled the jury fails
to amount to an abuse of discretion by the trial court.
The fact that some of Dr. Lutz’s testimony may
have been potentially misleading or confusing comes
close, but ultimately does not amount to a “plain and
indisputable” error.68 Nor can we conclude it rises to
the level of “a complete disregard of the controlling
law.”69 We are certainly troubled by some aspects of
Dr. Lutz’s testimony. Nevertheless, we cannot conclude
these aspects of Dr. Lutz’s testimony amounted to
manifest error.70 Indeed, despite challenging Dr. Lutz’s
qualifications, defense counsel did not object to specific
questions eliciting, during direct examination, Dr.
Lutz’s ambiguous assessment of patients’ homebound
status and consequent need for home health services.
Instead, counsel’s effective cross-examination resolved
these ambiguities and clearly demonstrated for the
jury that Dr. Lutz’s determinations were based on his
own, more conservative view of which patients were in
fact “homebound.”71 Further, the “presentation of con­
trary evidence!] and careful instruction on the burden
of proof” were other available means of adequately

68

Puga, 922 F.3d at 293 (quoting Guy, 394 F.3d at 325).
69 Id. (quoting Guy, 394 F.3d at 325).
70 See id.
71 See Daubert v. Merrell Dow Pharms., Inc., 509 U.S. 579,
596 (1993) (noting that “[v]igorous cross-examination! is one of]
the traditional and appropriate means of attacking shaky but
admissible evidence” (citing Rock v. Arkansas, 483 U.S. 44, 61
(1987))).

App. 40
addressing any confusion that resulted from Dr. Lutz’s
testimony.72
D
Evans argues that the district court procedurally
and substantively erred in imposing his sentence. His
sentence turned largely on the amount of loss resulting
from his fraudulent conduct.73 During the intervening
16 months between Evans’s conviction and sentencing,
both Evans and the government presented each of
their proposed loss calculations to the court. Four days
prior to sentencing, Evans requested permission to
cross examine a government witness as to the loss cal­
culation and to present his own expert testimony con­
cerning his proposed calculation at sentencing. The
district court denied his request, noting that “evidence
relevant to the loss allocation had been presented at
the trial, that the parties have had the opportunity to
do extensive briefing on the issue, and that, as a result,
no live testimony will be allowed at the sentencing
hearing.” The court permitted, however, “Evans to prof­
fer his own expert’s testimony about loss calculations
on the record at the conclusion of the hearing.” Evans
filed a motion to reconsider two days before sentencing.
He stressed that he had been prohibited “from putting
on ‘evidence regarding the admission of worthy pa­
tients into home health care’ or ‘evidence of specific
72 Id. at 596 (citing Rock, 483 U.S. at 61).
73 See U.S. Sent’g Guidelines Manual § 2B1.1(b)(1) (U.S.
Sent’g Comm’n 2016).

App. 41
instances of uncharged proper Medicare billing[s]’ dur­
ing the trial.” Thus, in his estimation, not all of the
“evidence relevant to the loss allocation had been pre­
sented at the trial.” Nevertheless, the district court re­
fused to reconsider its original ruling.
At oral sentencing, the district court first defined
what it considered to be each physician’s relevant
conduct under section 1B1.3 of the Guidelines. The de­
fendants collectively had engaged in jointly under­
taken criminal activity. But the district court held that
“the scope of [each physician’s] jointly undertaken
criminal activity encompassed only the fraudulent con­
duct relating to each defendant [’s] own acts and pa­
tients.” Next, the court found that the actual loss
resulting from Evans’s scheme exceeded his intended
loss; thus, actual loss would be used to calculate his
advisory range. It then determined that actual loss in
this case included “all Medicare payments made to
both Abide and [Evans] for all of [Evans’s] patients.”
Under this framework, actual loss included not only
Evans’s fraudulent billings, but some legitimate
billings as well. The court cited United States v. Heb­
ron, however, which held that “whe[n] the government
has shown that the fraud was so extensive and perva­
sive that separating legitimate benefits from fraudu­
lent ones is not reasonably practicable, the burden
shifts to the defendant to make a showing that partic­
ular amounts are legitimate.”74 Here, the court con­
cluded that the fraud was pervasive and Evans had
74 684 F.3d 554, 563 (5th Cir. 2012).

App. 42
failed to produce evidence demonstrating which bills
were legitimate and which were fraudulent. Subse­
quently, the court found that the actual loss resulting
from Evans’s offense totaled $1,262,043.
1
Evans first contends that the district court’s “re­
fusal to hold an evidentiary hearing on [the question
of loss] violated [his] [d]ue [p]rocess rights.” According
to Evans, an evidentiary hearing would have allowed
him to “put forth evidence of both legitimate billings
and legitimately rendered services [that could have
been] deducted from the total loss amount.” To buttress
his argument, he points to the apparent contradiction
between the district court concluding Evans failed to
produce evidence of legitimate billings and legiti­
mately rendered services on the one hand, and, on the
other hand, the district court’s refusal to permit an ev­
identiary hearing at which such evidence could have
been presented.
Evans’s contention requires us to look to the com­
mentary to section 6A1.3 of the Guidelines, which pro­
vides guidance as to the appropriate procedures when
facts impacting sentencing are in dispute.75 It in­
structs that “[w]hen a dispute exists about any fac­
tor important to the sentencing determination, the
court must ensure that the parties have an adequate

75 U.S. Sent’g Guidelines Manual § 6A1.3 cmt. (U.S. Sent’g
Comm’n 2016).

App. 43
opportunity to present relevant information.”76 “Writ­
ten statements of counsel or affidavits of witnesses
may be adequate under many circumstances.”77 The
commentary further provides that “[a]n evidentiary
hearing may sometimes be the only reliable way to re­
solve disputed issues.”78 In this circuit, a district court’s
refusal to hold an evidentiary hearing is reviewed for
an abuse of discretion.79 “[W]e have recognized that
there is no abuse of discretion when a defendant has
an opportunity to review the PSR and submit formal
objections to it. ”80
Here, the district court did not abuse its discre­
tion when it refused Evans’s request for an eviden­
tiary hearing. Evans had ample opportunity prior to
sentencing to present evidence relevant to the loss
calculation. Affidavits and statements by counsel
are but two examples.81 Evans was given the oppor­
tunity to proffer his expert’s testimony about the loss
76 Id.
77 Id. (citing United States v. Ibanez, 924 F.2d 427 (2d Cir.
1991)).
78 Id. (collecting cases).
79 United States v. Henderson, 19 F.3d 917, 927 (5th Cir.
1994).
80
United States v. Tuma, 738 F.3d 681, 693 (5th Cir. 2013)
(citing United States v. Patten, 40 F.3d 774, 777 (5th Cir. 1994)
(per curiam)).
81 See Henderson, 19 F.3d at 927 (noting that the defendant’s
“due process rights were protected adequately” because “[h]e
could have filed affidavits and other exhibits in support of” any
formal objections he filed to the PSR and that “[a]t the sentencing
hearing, [he] presented several exhibits and objected to some of
the exhibits proffered by the government”).

App. 44
calculations at the end of the hearing. It is ultimately
the district court that must make the factual determi­
nations relevant for sentencing purposes.82 The district
court’s decision that an evidentiary hearing was un­
necessary should be given considerable deference by
this court.83 Here, its decision to not take live testi­
mony prior to sentencing did not amount to an abuse
of discretion based on this record.
2

Next, Evans contends the methodology employed
by the district court to calculate actual loss in this case
was flawed. He raises three sub-arguments.
a
First, Evans challenges the district court’s deci­
sion to apply Hebron's, burden-shifting framework. 84
Specifically, he contends “there was no basis for the
court’s conclusion that ‘the fraud in this case was per­
vasive and difficult to detect,’” thereby there was no
basis to shift the burden to him to demonstrate which,
if any, billings were legitimate. He notes initially
that this circuit has not yet articulated which stand­
ard of review applies to a court’s determination that a
82 See United States v. Nava, 624 F.3d 226, 230-31 (5th Cir.
2010); see also U.S. Sent’g Guidelines Manual § 6A1.3(a) (U.S.
Sent’g Comm’n 2016).
83
Henderson, 19 F.3d at 927.
84 See United States v. Hebron, 684 F.3d 554, 562-63 (5th Cir.
2012).

App. 45
particular fraud is pervasive.85 Because “this determi­
nation constitutes a ‘method’ of determining the loss
amount,” however, he argues de novo review should
apply. As to the merits of his contention, he points to
the fact that he “was acquitted of both conspiracy
charges [] and convicted only of fraud with regard to
three episodes of care.” Moreover, he notes that the gov­
ernment failed to offer any evidence of fraud relating
to treatment of patients not identified in the indict­
ment. “Consequently,” he argues, “there was no basis
for the court’s conclusion that ‘the fraud in this case
was pervasive and difficult to detect.’ ” To the extent
Abide may have been engaged in a pervasive fraud
with other physicians, “there was no such showing
with regard to [Evans].”
We conclude that clear-error review is the appro­
priate standard. Admittedly, the standard of review for
loss determinations is somewhat complicated. We “con­
sider [de novo] how the [sentencing] court calculated
the loss, because that is an application of the [Guide­
lines, which is a question of law.”86 “[Clear-error] re­
view applies to the background factual findings that
determine whether ... a particular method is appro­
priate.”87 If we affirm the district court’s methodology
86 See United States v. Ezukanma, 756 F. App’x 360, 372 (5th
Cir. 2018) (per curiam).
86
United States v. Klein, 543 F.3d 206, 214 (5th Cir. 2008)
(emphasis added) (citing United States v. Saacks, 131 F.3d 540,
542-43 (5th Cir. 1997)).
87 United States v. Isiwele, 635 F.3d 196, 202 (5th Cir. 2011)
(citing United States v. Harris, 597 F.3d 242, 251 n.9 (5th Cir.
2010)).

App. 46
under this framework, we then review the application
of the methodology to the facts of the particular case
for clear error.88
With those standards in mind, one can plausibly
categorize Hebron’s burden-shifting framework as a
“method” of determining actual loss, which would be
subject to de novo review. But we believe it is more ap­
propriate to define a district court’s “pervasiveness de­
termination” as a background factual finding that
informs the ultimate methodology employed by the
court. After all, the district court must first deter­
mine that a fraud is pervasive before invoking the
procedures outlines in Hebron.89 We therefore review
Evans’s first argument, which concerns a factual deter­
mination by the district court, for clear error.
Under that standard, we agree with the district
court that Evans’s fraud was pervasive. The statistical
evidence presented during trial concerning case-mix
diagnoses is persuasive. The case-mix diagnoses codes
were “used to increase [Abide’s] Medicare!] reimburse­
ment^].” Dr. Solanky, a government witness, provided
statistical evidence regarding seven of the codes. Dr.
Solanky’s testimony indicated that a greater percent­
age of Evans’s patients had been diagnosed with each
of those diagnostic codes than other providers in Loui­
siana. For six of the diagnostic codes, the disparity was
statistically significant, meaning they did not occur “by
88

See United States v. Cooper, 274 F.3d 230, 238 (5th Cir.

2001).
89

Hebron, 684 F.3d at 563.

App. 47
. . . chance.” In light of this evidence, the district court’s
conclusion that Evans’s fraud was pervasive is more
than plausible.90 We will not disturb the district court’s
decision to apply Hebron's burden-shifting framework
in this case.
b
Second, Evans argues the district court failed
to make the requisite findings that he engaged in a
conspiracy with Abide. He relies on United States v.
Jimenez, an unpublished case, to support his argu­
ment.91 There, the defendant had been found guilty
of conspiracy to possess with intent to distribute
marijuana.92 At sentencing, the district court deter­
mined that the defendant’s “jointly-conducted activity”
extended to a separate drug transaction involving co­
caine.93 This court vacated and remanded for resen­
tencing “[b]ecause the record reflect [ed] no explicit
finding regarding whether the distribution of cocaine
was within the scope of the criminal activity that [the
defendant] agreed to undertake.”94

90 See Cooper, 274 F.3d at 238 (citing United States v. PuigInfante, 19 F.3d 929,942 (5th Cir. 1994)) (“A factual finding is not
clearly erroneous if it is plausible in light of the record read as a
whole.”).
91 77 F. App’x 755 (5th Cir. 2003) (summary calendar).
92 Id. at 756.
93 Id. at 757-58.
94 Id. at 760.

App. 48
Evans argues that if the district court wanted to
hold him liable for Abide’s fraudulent acts, the court
must first specifically find that those acts were “(i) within
the scope of the jointly undertaken criminal activity,
(ii) in furtherance of that criminal activity, and (iii) rea­
sonably foreseeable in connection with that criminal
activity.”95 He asserts that “the district court only ad­
dressed the ‘scope’ of [his] relevant conduct, which it
defined as ‘fraudulent conduct relating to [Evans’s]
own acts and . . . patients.’’’Without addressing the re­
maining two requirements, Evans contends, the dis­
trict court could not hold him liable for anything other
than his own actions, actions which included nothing
more than “the amount [Medicare] paid for JoWi and
MaGr in the counts of conviction.”
Ultimately, however, Evans’s argument is without
merit. Admittedly, the sentencing transcript does sug­
gest that the district court only directly addressed sec­
tion lB1.3(a)(l)(B)’s first requirement, namely whether
Abide’s conduct was “within the scope of the jointly un­
dertaken criminal activity.”96 It noted, “[t]he [c]ourt
finds as a matter of fact that the scope of Barnes, Ev­
ans, Michael Jones, and ... Molden’s jointly undertaken
criminal activity encompassed only the fraudulent con­
duct relating to each defendant [’s] own acts and pa­
tients.” The court did not appear to have expressly
addressed the remaining two requirements.

96 U.S. Sent’g Guidelines Manual § 1B1.3(a)(1)(B) (U.S.
Sent’g Comm’n 2016).
96 Id. § lB1.3(a)(l)(B)(i).

App. 49
Nevertheless, the district court implicitly recog­
nized that the remaining two requirements were sat­
isfied. The district court went to great pains to follow
Fifth Circuit precedent during sentencing. The court
noted it was required to expressly find each of section
lB1.3(a)(l)(B)’s requirements. It then outlined why
the government’s articulation of each defendant’s rele­
vant conduct—namely, that each physician was in a
conspiracy not merely with Abide, but with each of the
other physicians—did not satisfy those requirements.
Thereafter, the district held that “the scope of [each
physician’s] jointly undertaken criminal activity en­
compassed only the fraudulent conduct relating to
each defendant [’s] own acts and patients.” Viewed in
context, the record thus suggests the district court be­
lieved the remaining two requirements were met as
well. That is, by first outlining the requirements, then
rejecting the government’s articulation of each defend­
ant’s jointly undertaken criminal activity, and finally
concluding that a different articulation was more ap­
propriate, the judge implicitly recognized that its own
articulation met section lB1.3(a)(l)(B)’s requirements.
Moreover, as this court noted in United States v.
Puig-Infante, district courts are permitted “to make
implicit findings by adopting the PSR.”97 Here, the dis­
trict court adopted the PSR’s factual findings, which
thoroughly described the overall conspiracy and Ev­
ans’s role in it.

97 19 F.3d 929, 943 (5th Cir. 1994) (quoting United States v.
Carreon, 11 F.3d 1225, 1231 (5th Cir. 1994)).

App. 50
c
Third, relying on evidence proffered after sentenc­
ing, Evans argues that “the district court erroneously
included billings that occurred both before and after
[Evans’s] agreement with Abide.” By his calculations,
his actual-loss total is reduced by $52,947.
Because Evans’s contention does not affect his
Guidelines calculation, it is only necessary to con­
sider his argument as it relates to the court’s resti­
tution order. The district court ordered restitution in
this case pursuant to the Mandatory Victim’s Restitu­
tion Act of 1996 (MVRA).98 “The MVRA authorizes res­
titution to a victim ‘directly and proximately harmed’
by a defendant’s offense of conviction.”99 Restitution or­
ders are reviewed under an abuse of discretion stand­
ard,100 with factual findings reviewed for clear error. 101
Importantly, “[a]n award of restitution greater than a
victim’s actual loss exceeds the MVRA’s statutory max­
imum. ”102

98

See 18 U.S.C. § 3663A.
99 United States v. Sharma, 703 F.3d 318, 322 (5th Cir. 2012)
(quoting 18 U.S.C. § 3663A(a)(2)) (citing 18 U.SC. § 3663A(a)(l),
(c)(1)).
100
Id. (citing United States v. Mann, 493 F.3d 484, 498 (5th
Cir. 2007)).
101 Id. (citing United States v. Beydoun, 469 F.3d 102, 107
(5th Cir. 2006)).
102
Id. (first citing United States v. Chem. & Metal Indus.,
Inc., 677 F.3d 750, 752 (5th Cir. 2012); and then citing Beydoun,
469 F.3d at 107).

App. 51
Under these standards, we will not vacate Evans’s
restitution order. We assume without deciding that we
may consider the evidence Evans proffered after sen­
tencing. Nevertheless, this evidence does little to call
into question the district court’s calculations. The loss
calculation in this case turned, in part, on the length
of time Evans participated in the conspiracy. As a re­
sult, Evans’s proffered report turns largely on the case
agent’s opinion as to when Evans’s involvement in the
conspiracy started and ended. According to Evans’s ex­
pert, the case agent concluded that Evans was involved
in a conspiracy with Abide from September 29, 2011
through January 31, 2014. But because the govern­
ment exhibits used to calculate actual loss covered
more than just that particular period, Evans’s expert
concludes that the government exhibits “include claims
that are outside of the time period of [Evans’s] busi­
ness affiliation with Abide.” Importantly, though, the
district court’s determination as to Evans’s start and
end dates differed from the government’s case agent.
Notably, although Evans proffered his expert’s re­
port after sentencing, the expert report was drafted
two days before sentencing. The expert therefore could
not have known before writing the report that the dis­
trict court would select different start and end dates
for Evans’s conspiracy than those suggested by the
case agent. In contrast to the case agent, the court con­
cluded that the start and end dates for Evans’s involve­
ment in the conspiracy were September 11, 2011 and
June 9, 2014, respectively.

App. 52
Ultimately, Evans’s proffered report does little to
challenge the district court’s restitution order and
hardly demonstrates that the district court’s factual
findings were clearly erroneous. We therefore decline
Evans’s request to remand his case to the district court
for resentencing.
E
Lastly, Evans contends the district court substan­
tively erred during his sentencing. He argues the dis­
trict court “failed to consider [several] categories of
evidence in determining the loss amount.” Specifically,
he points to the types of evidence he would have offered
at an evidentiary hearing: (1) “additional evidence [] to
rebut the presumption that the amount billed accu­
rately depicts the loss amount;” (2) “evidence of. . . le­
gitimate billings;” and (3) “evidence of. . . legitimately
rendered services.” After considering the totality of
the circumstances, though, we believe his sentence was
substantively reasonable.103 Sentences within the cor­
rectly calculated Guidelines range are afforded a pre­
sumption of reasonableness.104 Here, Evans’s correctly
103
See Gall v. United States, 552 U.S. 38, 51 (2007) (“When
conducting [a review of the substantive reasonableness of the sen­
tence], the court will, of course, take into account the totality of
the circumstances, including the extent of any variance from the
Guidelines range.”).
104
United States v. Smith, 440 F.3d 704, 707 (5th Cir. 2006)
(citing United States v. Alonzo, 435 F.3d 551, 553-54 (5th Cir.
2006)); see also United States v. Diehl, 775 F.3d 714, 724 (5th Cir.
2015) (noting that “review for substantive reasonableness is
highly deferential, because the sentencing court is in a better

App. 53
calculated advisory Guidelines range called for be­
tween 63 and 78 months in prison. The court granted
a downward variance to 50 months in prison. This below-Guidelines sentence is afforded a presumption of
reasonableness in this court and Evans has not suffi­
ciently rebutted that presumption. We therefore affirm
his sentence.
V
A
Paula Jones’s first issue on appeal concerns
whether the government produced sufficient evidence
to convict her of conspiracy to commit health care
fraud (Count 1) and conspiracy to violate the anti-kick­
back statute (Count 2).
As to Count 1, Jones, like her co-defendants, had a
financial incentive to engage in a conspiracy to commit
health care fraud. The government also presented evi­
dence demonstrating: (1) Jones’s awareness that Abide
needed to bill $2,100 to break even for each home
health care episode; (2) the fact that she would gener­
ate reports monitoring the average revenue for home
health episodes weekly; (3) the fact that when a bill did
not reach $2,100, she would “g[i]ve the files back to the
case managers to see if they could get the score up to
at least $2,100[;]” (4) the fact that she routed one of
position to find facts and judge their import under the § 3553(a)
factors with respect to a particular defendant” (internal quotation
marks omitted) (quoting United States v. Hernandez, 633 F.3d
370, 375 (5th Cir. 2011))).

App. 54
Michael Jones’s billings without his required signa­
ture; and (5) the fact that Jones, as Abide’s biller,
routed each of the physicians’ fraudulent bills to Med­
icare. Further, evidence that she had “a ‘911’ code” in
the event law enforcement arrived also provided cir­
cumstantial evidence that she was aware criminal ac­
tivity was afoot.
As to Count 2, Jones’s awareness of the fact that
her salary was tied to Michael Jones’s referrals, her
continued receipt of that salary, and her 911 code are
more than enough for a rational jury to conclude that
she agreed to participate in a conspiracy involving
health care kickbacks.
B
Jones maintains that the district court erred when
it refused to sever her from trial with the other defend­
ants. Numerous times during trial, Jones moved under
Rule 14 for relief from prejudicial joinder. Under Rule
14, “[i]f the joinder of offenses or defendants in an in­
dictment, an information, or a consolidation for trial
appears to prejudice a defendant or the government,
the court may order separate trials of counts, sever the
defendants’ trials, or provide any other relief that jus­
tice requires. ”105 The trial court denied each of those
requests. On appeal, Jones argues the district court’s
refusal to sever her trial from the remaining defend­
ants constituted error. She argues a joint trial resulted
in prejudicial spillover and argues that the judge’s
105

Fed. R. Crim. P. 14(a).

App. 55
limiting instructions inadequately addressed the prej­
udicial effect of a joint trial. We disagree.
“We review the denial of a motion to sever a trial
under the exceedingly deferential abuse of discretion
standard.”106 Severance under Rule 14 is proper “only
if there is a serious risk that a joint trial would com­
promise a specific trial right of one of the defendants,
or prevent the jury from making a reliable judgment
about guilt or innocence, ”107 « [A] defendant ‘must prove
that: (1) the joint trial prejudiced him [or her] to such
an extent that the district court could not provide ade­
quate protection; and (2) the prejudice outweighed the
government’s interest in economy of judicial admin­
istration.’”108
Here, the district court did not abuse its discretion
when it refused to grant Jones’s request for a separate
trial. Jones’s argument relies heavily on her assertion
that evidence aimed at her co-defendants would likely
spillover into her case. But the evidence adduced
against the remaining defendants was largely relevant
to Jones’s conduct as well. The substantive evidence
adduced against the remaining defendants largely es­
tablished a “culture of fraud” at Abide. That same evi­
dence, the district court noted, was relevant to whether
106

United, States v. Reed, 908 F.3d 102, 114 (5th Cir. 2018)
(internal quotation marks omitted) (quoting United States v.
Chapman, 851 F.3d 363, 379 (5th Cir. 2017)).
107
Id. (quoting United States v. Mitchell, 484 F.3d 762, 775
(5th Cir. 2007)).
108
Id. (quoting United States v. Rodriguez, 831 F.3d 663, 669
(5th Cir. 2016)).

App. 56
“employees, like [Jones], knew or should have known
that their activities were part of a conspiracy to de­
fraud Medicare.” Jones thus largely exaggerates the
spillover risks in this case.
Moreover, the district court’s instructions ade­
quately alleviated the risk of unfair prejudice. The
district court’s instruction to consider each count sep­
arately was “sufficient to prevent the threat of preju­
dice resulting from [a joint trial], ”109 Likewise, the
district court did not err in refusing to read Jones’s
hand-crafted instructions—instructions Jones con­
tends would have further reduced the risk of unfair
prejudice. The district court refused to read her pro­
posed instructions because they were more akin to a
closing argument, than jury instructions. We have “re­
peatedly rejected requested instructions that are ‘more
in the nature of a jury argument than a charge,’ ” and
do so again here. 110
As the district court correctly noted, “[t]he rule,
rather than the exception, is that persons indicted
together should be tried together, especially in conspiracy cases. ”iu Jones fails to explain adequately why her
case is the exception and not the rule. The district
109

United States v. Whitfield, 590 F.3d 325, 356 (5th Cir.
2009) (quoting United States v. Massey, 827 F.2d 995, 1005 (5th
Cir. 1987)).
no United States v. Thompson, 761F. App’x 283,292 (5th Cir.
2019) (per curiam) (quoting United States v. Lance, 853 F.2d 1177,
1184 (5th Cir. 1988)).
111 United States v. Pofahl, 990 F.2d 1456, 1483 (5th Cir.
1993).

App. 57
court did not abuse its discretion when it declined to
grant Jones’s severance motion.
C
We next consider if the district court procedurally
erred when calculating the total-loss amount applica­
ble to Jones’s sentence and restitution order.
Jones’s advisory Guidelines range and her restitu­
tion order turned on the amount of loss resulting from
the fraud. The court ultimately concluded that “the
reasonably foreseeable pecuniary harm” in this case
was $3,106,954.112 It arrived at that figure by first de­
termining that Abide had billed $4,124,591.20 to Med­
icare during the relevant period and then reducing
that total by 32 percent because Jones was only logged
into Kinnser for 68 percent of the relevant time period.
On appeal, Jones contends the district court pro­
cedurally erred in calculating her advisory sentence.
She also alleges the district court’s restitution order,
which mirrored the district court’s loss-calculation,
was inflated. She argues that “[t]o hold her accounta­
ble for a loss amount of over $3 million vastly exagger­
ates her very limited role in the alleged conspiracy.”
She contends the district court erred when it concluded
that all of Abide’s Medicare billings were foreseeable
losses. “As a biller for the company,” she notes, “she
112 U.S. Sent’g Guidelines Manual §§ 2B1.1 cmt. n.3(A)(i)
(U.S. Sent’g Comm’n 2016); see also U.S. Sent’g Guidelines Man­
ual §§ 2B1.1(b)(1) (U.S. Sent’g Comm’n 2016).

App. 58
would have no way of knowing whether . . . the doctors
had actually seen the patients in question, let alone
whether those patients actually . . . qualified for home
health care.” To demonstrate the significance of the dis­
trict court’s error, Jones notes her loss amount was
substantially greater than all of the physicians in the
conspiracy.
We review sentencing decisions to ensure they are
reasonable.113 Jones specifically challenges the district
court’s loss calculation and its effect on the advisory
Guidelines calculation. If correct, her allegation would
constitute significant procedural error.114 As to the
standard of review applied to Jones’s appeal, Jones
takes issue with the factual predicates underlying the
district court’s methodology. That is, she argues the
district court erred insofar as it determined that all
billings Jones approved using Kinnser were “the

113

United States v. Nguyen, 854 F.3d 276, 280 (5th Cir. 2017)
(citing Gall v. United States, 552 U.S. 38, 46 (2007)).
114 See Gall, 552 U.S. at 51 (listing examples of “significant
procedural error, such as failing to calculate (or improperly calcu­
lating) the Guidelines range, treating the Guidelines as manda­
tory, failing to consider the § 3553(a) factors, selecting a sentence
based on clearly erroneous facts, or failing to adequately explain
the chosen sentence—including an explanation for any deviation
from the Guidelines range”).

App. 59
reasonably foreseeable pecuniary harm [of her] of­
fense.”115 Her contention is thus subject to clear-error
review. 116
Here, the district court’s factual finding survives
clear-error review. The district court’s well-reasoned
statement from the bench adequately justified its deci­
sion to hold Jones accountable for $3,106,954 in actual
losses. The district court noted that (1) “Jones partici­
pated in all of Abide billings, including fraudulent
billings;” (2) “her awareness of the fraud was much
more extensive” than she alleges; and (3) “her agree­
ment to jointly undertake criminal activity extended to
the entire reach of the conspiracy.” As previously out­
lined, these conclusions find adequate support in the
record. The district court’s factual findings were thus
plausible on the current record.117
The fact that Jones’s loss amount exceeded that of
the physicians in the conspiracy is not determinative.
Because actual loss calculations turn on foreseeabil­
ity,118 this result makes logical sense. One spoke of a
conspiracy—a physician, for example, in a health care
115 U.S. Sent’g Guidelines Manual § 2B1.1 cmt. n.3(A)(i)
(U.S. Sent’g Comm’n 2016).
116 See United States v. Isiwele, 635 F.3d 196, 202 (5th Cir.
2011) (citing United States v. Harris, 597 F.3d 242, 251 n.9 (5th
Cir. 2010)).
117 See United States v. Cooper, 274 F.3d 230, 238 (5th Cir.
2001) (citing United States v. Puig-Infante, 19 F.3d 929, 942 (5th
Cir. 1994)) (“A factual finding is not clearly erroneous if it is plau­
sible in light of the record read as a whole.”).
118
See U.S. Sent’g Guidelines Manual § 2B1.1 cmt. n.3(A)
(U.S. Sent’g Comm’n 2016).

App. 60
fraud scheme—may be unable to foresee the true scope
of the conspiracy. But a person who processes each bill
of an organization he or she knows is engaged in fraud­
ulent conduct would be able to foresee the full scale of
the fraud.119 Thus, despite Jones’s contentions, the fac­
tual findings that formed the basis of the district
court’s loss-calculation methodology are not clearly er­
roneous. For the same reasons, the district court’s res­
titution order survives appellate review. 120
VI
A
Gregory Molden argues that there was insufficient
evidence to convict him of conspiracy to commit health
care fraud (Count 1), conspiracy to violate the anti­
kickback statute (Count 2), and eleven counts of sub­
stantive health care fraud (Counts 32 through 42).

119

Cf. United States v. Dehaan, 896 F.3d 798, 808 (7th Cir.
2018) (“[RJegardless of whether the agencies themselves engaged
in independent wrongdoing when they billed Medicare for these
services, the billings were the direct and foreseeable result of
DeHaan’s fraud as the gatekeeper in certifying the patients; with­
out his certification, the agencies could not have billed Medicare
and Medicare would not have compensated the agencies for the
services they provided. The Medicare payments are a reasonable
approximation of the loss resulting from DeHaan’s own criminal
conduct. . . .”).
120
See United States v. Mahmood, 820 F.3d 177,196 (5th Cir.
2016) (citing United States v. Echols, 574 F. App’x 350, 359 (5th
Cir. 2014) (per curiam)); see also Dehaan, 896 F.3d at 808.

App. 61
1
Molden contends there was insufficient evidence
to find him guilty of either conspiracy charge. As to
Count 1, Crinel pleaded guilty to conspiring with
Molden to commit health care fraud; evidence at trial
suggested Molden had a financial incentive to join the
conspiracy; and the statistical evidence is likewise pro­
bative of Molden’s guilt. The evidence related to each
of Molden’s substantive health care fraud counts simi­
larly reinforces the jury’s conclusion that Molden’s ac­
tions were fraudulent. Together, this evidence is more
than enough for the jury to conclude that Molden par­
ticipated in a conspiracy to commit health care fraud.
The evidence presented as to Count 2 is perhaps
even more compelling. Evidence presented at trial sug­
gested Molden was paid $5,000 a month to work for
Abide. Before Molden entered into this arrangement
with Abide, he had several form 485s at Abide that had
yet to be signed. According to Crinel, “in order for him
to sign the 485s and to continue to send patients to
[Abide], he wanted a salary.” Wilneisha Jakes also tes­
tified that Molden was being paid for patient referrals.
Coupled with the fact that Crinel admitted to paying
Molden kickbacks, there was more than enough evi­
dence to convict Molden on Count 2.
2

Likewise, Molden contends there was insufficient
evidence to convict him of substantive health care
fraud. Counts 32 through 37 related to patient KeTr.

App. 62
Counts 38 to 42 related to patient ShBe. Unlike his co­
defendants who argued they were unaware their pa­
tients did not qualify for home health care, Molden
seems to argue his patients did qualify for these ser­
vices.
As to patient KeTr, the jury could reasonably infer
from Dr. Lutz’s testimony that this patient did not
qualify for home health care. Molden had qualified
KeTr for home health care because the patient suffered
from Type 2 diabetes. But as Dr. Lutz noted, “Molden
ordered blood tests on the same day he admitted
[KeTr] to home health, and those blood tests came back
[within normal levels].” Thus, according to Dr. Lutz,
KeTr’s diabetes was “perfectly controlled.” Dr. Lutz
also testified that nurses had difficulty locating KeTr
while he was receiving home health care. During sev­
eral visits to KeTr’s home, nurses would knock on the
door, but no one would answer. The logical inference
from such evidence is that KeTr was not, in fact, homebound. In fact, he was eventually disenrolled from
home health care after nurses could not locate him. To­
gether, this evidence more than suggests KeTr was
not homebound when Molden certified him for home
health care. There was thus sufficient evidence to con­
vict Molden of substantive health care fraud with re­
gard to his treatment of KeTr.
As for patient ShBe, the evidence was also suffi­
cient to convict Molden of substantive health care
fraud. Dr. Lutz testified that: (1) ShBe’s patient file
lacked documentation to support Molden’s diagnoses;
(2) ShBe’s diagnoses were shuffled; and (3) ShBe was

App. 63
not home during several home health visits. As an ex­
ample of suspicious certifications, Dr. Lutz noted that
eight days prior to Molden recertifying ShBe for an
episode of home health care based on hypertension, her
blood pressure had been normal. He further opined
that ShBe did not require skilled nursing care. The
jury could reasonably have concluded that ShBe did
not require home health care.
B
Like Barnes, Molden argues the district court
erred when it refused to read several Medicare instruc­
tions to the jury. For the reasons outlined earlier, the
court did not abuse its discretion when it refused to
read the proffered instructions to the jury.
C
Like Evans, Molden argues the district court erred
in permitting Dr. Lutz to testify as an expert. For the
reasons outlined earlier, the court’s decision to permit
such testimony did not amount to an abuse of discre­
tion.

The district court’s judgment is AFFIRMED.

App. 64
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-31074
UNITED STATES OF AMERICA,
Plaintiff—Appellee,
v.
GREGORY MOLDEN, M.D.,
Defendants—Appellants.
Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:15-CR-61-23
Before OWEN, Chief Judge, and HAYNES and COSTA,
Circuit Judges.
JUDGMENT
(Filed Oct. 28, 2020)
This cause was considered on the record on appeal
and was argued by counsel.
IT IS ORDERED and ADJUDGED that the judg­
ment of the District Court is AFFIRMED.

App. 65
IT IS FURTHER ORDERED that appellant pay to
appellee the costs on appeal to be taxed by the Clerk of
this Court.

App. 66
United States District Court
Eastern District of Louisiana
UNITED STATES
OF AMERICA
v.
SHELTON BARNES

) JUDGMENT IN A
) CRIMINAL CASE
)
)
)

(Filed Sep. 28, 2018)
Case Number: 2:15cr61 “E”

) USM Number: 34224-034
) Edward J. Castaing, Jr.,
)
Retained
) Defendant’s Attorney
THE DEFENDANT:
□

pleaded guilty to count(s)________

□

pleaded nolo contendere to count(s)
which was accepted by the court.
was found guilty on count(s) 1. 2. 3. 4. 5. 6. 7. 8. 9.
10. 11. 12, 13. 14. 15. 16. 17 and 47 of the Second
Superseding Indictment on Mav 9. 2017
after a plea of not guilty.

The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of Offense Count

Conspiracy to Commit
1
Health Care Fraud
Conspiracy to Pay and
2
18 U.S.C. § 371
Receive Illegal Health
Care Kickbacks
18 U.S.C. § 1347 and 2 Health Care Fraud
3-17
18 U.S.C. § 1516 and 2 Obstruction of a Fed47
eral Audit
18 U.S.C. § 1349

App. 67
The defendant is sentenced as provided in pages 2
of this judgment. The sentence is
through
7
imposed pursuant to the Sentencing Reform Act of
1984.
□ The defendant has been found not guilty on count(s)
□ Count(s)

□ is □ are dismissed on the
motion of the United States.

It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special assess­
ments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify
the court and United States attorney of material
changes in economic circumstances.
September 25, 2018
Date of Imposition of Judgment
COURT
REPORTER:
Cathy Pepper

/s/ Susie Morgan
Signature of Judge

ASST. U.S. ATTOR- Susie Morgan,
United States District Judge
NEY: Patrice
Sullivan, Maria
Name and Title of Judge
Carboni, and
Sharan Lieberman
September 28, 2018
PROBATION
OFFICER:
Date
Marilyn J. Brasset

App. 68
IMPRISONMENT
The defendant is hereby committed to the custody
of the Federal Bureau of Prisons to be imprisoned for
a total term of:
SIXTY (60) MONTHS as to counts 1, 2, 3, 4, 5, 6,
7, 8, 9,10,11,12,13,14,15,16,17 and 47 of the Second
Superseding Indictment. This term consists of 60
months as to each count, all to be served concurrently.
IE1

The court makes the following recommendations
to the Bureau of Prisons:
Defendant to be placed in a facility as close to New
Orleans, Louisiana, as possible.

□

The defendant is remanded to the custody of the
United States Marshal.

□

The defendant shall surrender to the United
States Marshal for this district:

□ at

□ a.m. □ p.m. on____________

□ as notified by the United States Marshal.
El

The defendant shall surrender for service of sen­
tence at the institution designated by the Bureau
of Prisons:
El

before 12 p.m. on or before:
December 1. 2018

□

as notified by the United States Marshal.

□

as notified by the Probation or Pretrial
Services Office.

App. 69
RETURN
I have executed this judgment as follows:
Defendant delivered on___________

to

., with a certified copy of this

at
judgment.

UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL
SUPERVISED RELEASE
Upon release from imprisonment, you will be on super­
vised release for a term of ONE (1) YEAR as to counts
1, 2, 3, 4, 5, 6, 7, 8, 9, 10, 11, 12, 13, 14, 15, 16, 17 and
47 of the Second Superseding Indictment. This term
consists of 1 year as to each count, all to be served con­
currently.
MANDATORY CONDITIONS
1.

You must not commit another federal, state or lo­
cal crime.

2.

You must not unlawfully possess a controlled sub­
stance.

3.

You must refrain from any unlawful use of a con­
trolled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as
determined by the court.

App. 70
□

The above drug testing condition is sus­
pended, based on the court’s determina­
tion that you pose a low risk of future
substance abuse, (check if applicable)

4.

IS

You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other stat­
ute authorizing a sentence of restitution.
(check if applicable)

5.

K!

You must cooperate in the collection of DNA
as directed by the probation officer, (check if
applicable)

6.

□

You must comply with the requirements of the
Sex Offender Registration and Notification
Act (34 U.S.C. § 20901, et seq.) as directed by
the probation officer, the Bureau of Prisons, or
any state sex offender registration agency in
which you reside, work, are a student, or were
convicted of a qualifying offense, (check if ap­
plicable)

7.

□

You must participate in an approved program
for domestic violence, (check if applicable)

You must comply with the standard conditions that
have been adopted by this court as well as with any
additional conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on

App. 71
supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court
about, and bring about improvements in your conduct
and condition.
1.

You must report to the probation office in the fed­
eral judicial district where you are authorized to
reside within 72 hours of your release from impris­
onment, unless the probation officer instructs you
to report to a different probation office or within a
different time frame.

2.

After initially reporting to the probation office, you
will receive instructions from the court or the pro­
bation officer about how and when you must re­
port to the probation officer, and you must report
to the probation officer as instructed.

3.

You must not knowingly leave the federal judicial
district where you are authorized to reside with­
out first getting permission from the court or the
probation officer.

4.

You must answer truthfully the questions asked
by your probation officer.

5.

You must live at a place approved by the probation
officer. If you plan to change where you live or an­
ything about your living arrangements (such as
the people you live with), you must notify the pro­
bation officer at least 10 days before the change. If
notifying the probation officer in advance is not
possible due to unanticipated circumstances, you
must notify the probation officer within 72 hours
of becoming aware of a change or expected change.

App. 72
6.

You must allow the probation officer to visit you at
any time at your home or elsewhere, and you must
permit the probation officer to take any items pro­
hibited by the conditions of your supervision that
he or she observes in plain view.

7.

You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If you
do not have full-time employment you must try to
find full-time employment, unless the probation
officer excuses you from doing so. If you plan to
change where you work or anything about your
work (such as your position or your job responsi­
bilities), you must notify the probation officer at
least 10 days before the change. If notifying the
probation officer at least 10 days in advance is not
possible due to unanticipated circumstances, you
must notify the probation officer within 72 hours
of becoming aware of a change or expected change.

8.

You must not communicate or interact with some­
one you know is engaged in criminal activity. If
you know someone has been convicted of a felony,
you must not knowingly communicate or interact
with that person without first getting the permis­
sion of the probation officer.

9.

If you are arrested or questioned by a law enforce­
ment officer, you must notify the probation officer
within 72 hours.

10. You must not own, possess, or have access to a fire­
arm, ammunition, destructive device, or danger­
ous weapon (i.e., anything that was designed, or
was modified for, the specific purpose of causing

App. 73
bodily injury or death to another person such as
nunchakus or tasers).
11. You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.
12. If the probation officer determines that you pose a
risk to another person (including an organization),
the probation officer may require you to notify the
person about the risk and you must comply with
that instruction. The probation officer may contact
the person and confirm that you have notified the
person about the risk.
13. You must follow the instructions of the probation
officer related to the conditions of supervision.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the con­
ditions specified by the court and has provided me with
a written copy of this judgment containing these con­
ditions. I understand additional information regarding
these conditions is available at_www.uscourts.gov
Defendant’s Signature

Date

App. 74
SPECIAL CONDITIONS OF SUPERVISION
1.

The defendant shall provide complete access to
financial information, including disclosure of all
business and personal finances, to the United
States Probation Officer.

2.

The defendant shall not apply for, solicit or incur
any further debt, included but not limited to loans,
lines of credit or credit card charges, either as a
principal or cosigner, as an individual or through
any corporate entity, without first obtaining writ­
ten permission from the United States Probation
Officer.

3.

The defendant shall pay any fine/restitution/CJA
fee that is imposed by this judgment.

4.

The defendant shall maintain full-time, legitimate
employment and not be unemployed for a term of
more than 30 days unless excused for schooling,
training, or other acceptable reasons. Further, the
defendant shall provide documentation including,
but not limited to pay stubs, contractual agree­
ments, W-2 Wage and Earning Statements, and
other documentation requested by the United
States Probation Officer. If unemployed, the de­
fendant shall participate in employment readiness
programs, as approved by the probation officer.

5.

The defendant shall not own, directly or indirectly,
or be employed, directly or indirectly, in any health
care business or service, which submits claims to
any private or government insurance company,
without the Court’s approval.

App. 75
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal mone­
tary penalties under the schedule of payments on
Sheet 6.
Fine Restitution
JVTA
Assess­
ment Assessment*
$
$ 10,850,229.00
TOTALS $ 1,800.00
□

The determination of restitution is deferred un.. An Amended Judgment in a Criminal
til
Case (AO 245C) will be after such determination.

M

The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid be­
fore the United States is paid.

Name of
Payee

Total
Loss**

Priority or
Percentage

$10,850,229.00

Medicare

TOTALS

Restitution
Ordered

$

$

10.850.229.00

* Justice for Victims of Trafficking Act of 2015, Pub. L. No.
114-22
** Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses com­
mitted on or after September 13, 1994, but before April 23, 1996.

App. 76

□

Restitution amount ordered pursuant to plea
agreement $______________________

□

The defendant must pay interest on restitution
and a fine of more than $2,500, unless the
restitution or fine is paid in full before fifteenth
day after the date of the judgment, pursuant to
18 U.S.C. § 3612(f). All of the payment options
on Sheet 6 may be subject to penalties for delin­
quency and default, pursuant to 18 U.S.C.
§ 3612(g).

El

The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
IHI

the interest requirement is waived for
□ fine El restitution.

□

the interest requirement for
□ fine □ restitution is modified as follows:
SCHEDULE OF PAYMENTS

Having assessed the defendant’s ability to pay, pay­
ment of the total criminal monetary penalties is due as
follows:
A

B

□

□

due

Lump sum payment of $.
immediately, balance due
□

not later than______

□

in accordance
□ F below; or

, or

□ C, □ D, □ E, or

Payment to begin immediately (may be com­
bined □ C, □ D, or □ F below); or

App. 77
C

□

(e.g., weekly,
Payment in equal
monthly, quarterly) installments of
_(e.g., months or years),
over a period of
(e.g., 30 or 60 days) after
to commence
the date of this judgment; or

D

□

(e.g., weekly,
Payment in equal
monthly, quarterly) installments of $
_(e.g., months or years),
over a period of
(e.g., 30 or 60 days) after
to commence__
release from imprisonment to a term of super­
vision; or

E

□

Payment during the term of supervised re­
(e.g., 30
lease will commence within
or 60 days) after release from imprisonment.
The court will set the payment plan based on
an assessment of the defendant’s ability to
pay at that time; or

F

Kl

Special instructions regarding the payment of
criminal monetary penalties:
The special assessment is due immediately.
The payment of restitution shall begin while
the defendant is incarcerated. Upon release,
any unpaid balance shall be paid at the rate
of $250 per month. The payment is subject to
increase or decrease, depending on the de­
fendant’s ability to pay. Payments shall be
made payable to the Clerk, United States Dis­
trict Court, and are to be forwarded to the
following address: United States Clerk’s Of­
fice, ATTN: Financial Section, 500 Poydras
Street, Room C151, New Orleans, Louisiana
70130. The U.S. Bureau of Prisons, the U.S.
Probation Office, and the U.S. Attorney’s

App. 78
Office are responsible for the enforcement of
this order.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period
of imprisonment. All criminal monetary penalties, ex- cept those payments made through the Federal Bu­
reau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary penal­
ties imposed.
E

Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and corre­
sponding payee, if appropriate.
The defendant is jointly and severally liable for
these injuries with co-defendants Lisa Crinel
(15cr61-l), Zellisha Dejean (15cr61-14), PCAH,
Inc., a k.a. Priority Care at Home, Inc., d.b.a.
Abide Home Care Services, Inc. (15cr61-19), and
Rhonda Mayberry (15cr61-22), shall make restitu­
tion to the victim Medicare, except that no further
payment shall be required after the sum of the
amounts actually paid by all defendants has fully
covered all of the compensable injuries.

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court
cost(s):

App. 79
□

The defendant shall forfeit the defendant’s inter­
est in the following property to the United States:

Payments shall be applied in the following order: (1)
assessment, (2) restitution principal, (3) restitution in­
terest, (4) fine principal, (5) fine interest, (6) commu­
nity restitution, (7) JVTA Assessment, (8) penalties,
and (9) costs, including cost of prosecution and court
costs.

App. 80
United States Court of Appeals
for the Fifth Circuit
No. 18-31074
United States of America,
Plaintiff—Appellee,
versus
Shelton Barnes; Michael Jones; Henry Evans;
Paula Jones; Gregory Molden, M.D.,
Defendants—Appellants.
Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2-.15-CR-61-7
ON PETITION FOR REHEARING AND
REHEARINGS EN BANC
(Filed Jan. 4, 2021)
(Opinion 10/28/2020. 5 ClR.,

F.3d__ )

Before Owen, Chief Judge, and Haynes, and Costa,
Circuit Judges*
Per Curiam:
('O The Petition for Rehearing of Appellant Paula
Jones is DENIED and no member of this panel nor
* Judge Kurt D. Engelhardt, did not participate in the con­
sideration of the rehearings en banc.

App. 81
judge in regular active service on the court having
requested that the court be polled on Rehearing
En Banc, (Fed. R. App. R and 5th Cir. R. 35) the
Petition for Rehearing En Banc of Appellant Paula
Jones is also DENIED.
( ) The Petition for Rehearing of Appellant Paula
Jones is DENIED and the court having been
polled at the request of one of the members of the
court and a majority of the judges who are in reg­
ular active service and not disqualified not having
voted in favor, (Fed. R. App. P. and 5th Cir. R. 35)
the Petition for Rehearing En Banc of Appellant
Paula Jones is also DENIED.
( ) A member of the court in active service having re­
quested a poll on the reconsideration of this cause
En banc, and a majority of the judges in active ser­
vice and not disqualified not having voted in favor,
Rehearing En Banc of Appellant Paula Jones is
DENIED.
(S) Treating the Petition for Rehearing En Banc of
Appellant Shelton Barnes as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DE­
NIED. No member of the panel nor judge in regu­
lar active service of the court having requested
that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5th Cir. R. 35), the Petition
for Rehearing En Banc of Appellant Shelton
Barnes is DENIED.
( ) Treating the Petition for Rehearing En Banc of
Appellant Shelton Barnes as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DE­
NIED. The court having been polled at the request
of one of the members of the court and a majority

App. 82
of the judges who are in regular active service and
not disqualified not having voted in favor (Fed. R.
App. P. and 5th Cir. R. 35), the Petition for Rehear­
ing En Banc of Appellant Shelton Barnes is DE­
NIED.
('O Treating the Petition for Rehearing En Banc of
Appellant Gregory Molden as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DE­
NIED. No member of the panel nor judge in regu­
lar active service of the court having requested
that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5th Cir. R. 35), the Petition
for Rehearing En Banc of Appellant Gregory
Molden is DENIED.
( ) Treating the Petition for Rehearing En Banc of
Appellant Gregory Molden as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DE­
NIED. The court having been polled at the request
of one of the members of the court and a majority
of the judges who are in regular active service and
not disqualified not having voted in favor (Fed. R.
App. P. and 5th Cir. R. 35), the Petition for Rehear­
ing En Banc of Appellant Gregory Molden is DE­
NIED.
(vO (Treating the Petition for Rehearing En Banc of
Appellant Henry Evans as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DE­
NIED. No member of the panel nor judge in regu­
lar active service of the court having requested
that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5th Cir. R. 35), the Petition
for Rehearing En Banc of Appellant Henry Evans
is DENIED.

App. 83
( ) Treating the Petition for Rehearing En Banc of
Appellant Henry Evans as a Petition for Panel Re­
hearing, the Petition for Panel Rehearing is DE­
NIED. The court having been polled at the request
of one of the members of the court and a majority
of the judges who are in regular active service and
not disqualified not having voted in favor (Fed. R.
App. P. and 5th Cir. R. 35), the Petition for Rehear­
ing En Banc of Appellant Henry Evans is DE­
NIED.
(0 Treating the Petition for Rehearing En Banc of
Appellant Michael Jones as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DE­
NIED. No member of the panel nor judge in regu­
lar active service of the court having requested
that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5th Cir. R. 35), the Petition
for Rehearing En Banc of Appellant Michael Jones
is DENIED.
( ) Treating the Petition for Rehearing En Banc of
Appellant Michael Jones as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DE­
NIED. The court having been polled at the request
of one of the members of the court and a majority
of the judges who are in regular active service and
not disqualified not having voted in favor (Fed. R.
App. P. and 5th Cir. R. 35), the Petition for Rehear­
ing En Banc of Appellant Michael Jones is DE­
NIED.

